               Improvement Is Needed in E-Mail Responses
              to Complex Tax Questions Submitted Through
                     Toll-Free Telephone Help Lines

                                  December 2003

                       Reference Number: 2004-40-029




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   December 16, 2003



       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report – Improvement Is Needed in E-Mail
                                     Responses to Complex Tax Questions Submitted Through
                                     Toll-Free Telephone Help Lines (Audit # 200340042)


       This report presents the results of our review of the Referral Mail (R-Mail) Program.
       The overall objective of this review was to provide an indication of the quality of the
       Internal Revenue Service’s (IRS) toll-free telephone assistance for R-Mail Program
       questions during the 2003 Filing Season.1 We limited our review of the R-Mail Program
       to only e-mail2 responses. This audit was part of the Treasury Inspector General for Tax
       Administration’s Fiscal Year 2003 Annual Audit Plan.
       The IRS implemented the R-Mail Program to provide customer assistance relating
       to complex tax laws affecting taxpayers each year. The R-Mail database for the
       2003 Filing Season shows the majority of questions were resolved by telephone
       contacts (73 percent) as compared to e-mail (19 percent). However, these current
       statistics also show that the number of customers receiving e-mail responses increased
       55 percent over those receiving e-mails in the 2002 Filing Season. As more and more
       taxpayers become accustomed to electronic communication, it is to be expected that
       requests for e-mail responses will continue to grow annually.
       Our judgmental sample of 70 test calls determined the following:
       •   R-Mail Screeners were professional on 66 (94 percent) of the calls. Five calls were
           not recorded because the Screener provided an immediate answer; however, the


       1
        The period from January through mid-April when most individual income tax returns are filed.
       2
        E-mail is electronic text mail used for the transmission of messages sent from a computer terminal or computer
       system.
                                            2

    Screeners were incorrect for three of the five answers given. The Screeners
    accurately recorded 47 (72 percent) of the remaining 65 calls in the R-Mail
    database.
•   R-Mail Assistors e-mailed correct and complete responses for 35 (74 percent)
    of the 47 accurately recorded questions. The answers provided for the
    remaining 18 questions were either incorrect or incomplete.
When the results of both the Screeners and Assistors are combined, the potential
impact on taxpayers showed that only 37 (53 percent) of our test questions actually
received a complete and correct response. For the Program to be most effective,
Screeners must accurately record taxpayer questions and contact numbers to ensure
Assistors adequately consider all relevant information and are able to contact taxpayers
for additional clarification if necessary.
We recommended the Commissioner, Wage and Investment Division, initiate a review
of R-Mail Program guidelines and coordinate with the Commissioners of both the Small
Business/Self-Employed and Large and Mid-Size Business Divisions to ensure that
R-Mail Screeners accurately record complex questions and that R-Mail Assistors
completely and correctly answer taxpayer questions. In addition, Centralized Quality
Review Site management should perform periodic quality review checks and develop a
method to provide an overall assessment of its e-mail process with respect to the
taxpayer’s expectation of receiving a correct, complete, and timely response.
Management’s Response: IRS management agreed with our recommendations and
has already begun corrective actions. Completed actions include the addition of a
procedure to ensure that the Screeners record taxpayer questions accurately and ask
the customer for a telephone number. In addition, the 2004 Assistor Guide instructs
Assistors to call the taxpayer if they are unable to answer the question based on the
information secured by the Screener.
The IRS will also secure the appropriate security clearance needed to reinstitute the
quality review of responses to R-Mail questions. Reviews for the 2004 Filing Season
will address the accuracy of information secured by Screeners and the accuracy of
Assistors’ responses. The IRS will assess quality from initial taxpayer contact with the
Screener through the response provided by the R-Mail Assistor.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
            Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                    Submitted Through Toll-Free Telephone Help Lines




                                                Table of Contents


Background ............................................................................................... Page 1
The Screeners Provided Professional Service in 94 Percent
of Test Calls............................................................................................... Page 3
The Screeners Accurately Recorded Information in the
Referral Mail Database in 72 Percent of Test Calls ................................... Page 4
The Assisters Provided Correct Responses in 74 Percent of
Test Calls .................................................................................................. Page 5
         Recommendations 1 and 2: ........................................................... Page 6

Quality Review Procedures Do Not Include Combining Accuracy
Rates for Screeners and Assistors to Effectively Determine the
Overall Impact on Taxpayers..................................................................... Page 7
         Recommendations 3 and 4: ............................................................ Page 8

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 9
Appendix II – Major Contributors to This Report........................................ Page 11
Appendix III – Report Distribution List ....................................................... Page 12
Appendix IV – Outcome Measures ............................................................ Page 13
Appendix V – Tax Law Categories for the 2003 Filing Season
Referral Mail Program .............................................................................. Page 14
Appendix VI – Management’s Response to the Draft Report .................... Page 15
        Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                Submitted Through Toll-Free Telephone Help Lines

                               The Internal Revenue Service’s (IRS) mission is to provide
Background
                               America’s taxpayers top quality service by helping them
                               understand and meet their tax responsibilities and by
                               applying the tax law with integrity and fairness to all. Each
                               year, millions of taxpayers seek assistance by calling the
                               IRS’ toll-free telephone system to obtain answers to tax law
                               and procedural type questions.
                               During the 2003 Filing Season,1 over 14 million toll-free
                               calls were answered. Customer Service Representatives
                               (CSR) answer most of the questions from these calls while
                               the taxpayers remain on the line. However, some questions
                               are more complex and require the CSRs to transfer the
                               taxpayers to the IRS’ Referral Mail (R-Mail) Program.
                               The R-Mail Program is designed to provide additional
                               customer service by answering complex tax questions
                               within 3 workdays of a taxpayer’s call. The Program uses a
                               software system where taxpayer questions are classified and
                               entered into a database by the Screener for control purposes
                               and then routed to an employee having the proper training
                               and expertise, known as the Assistor, to address the tax
                               issues involved. This automated database also provides
                               management information and reduces the amount of clerical
                               time that a manual paper-based system would require.
                               During the 2003 Filing Season, IRS telephone reports show
                               that CSRs transferred 592,687 taxpayer calls to the R-Mail
                               Program for screening. Of these, 232,455 calls were
                               forwarded to other IRS programs, and the R-Mail database
                               received 280,176 of the calls.2 Of the 280,176 questions
                               received by the R-Mail database, 279,558 questions were
                               answered or closed from the database as follows:
                               •   73 percent (204,042) by a telephone response.
                               •   19 percent (53,980) by an e-mail3 response.


                               1
                                 The period from January through mid-April when most individual
                               income tax returns are filed.
                               2
                                 The remaining 80,056 calls would include not only immediate
                               responses, but also instances in which the taxpayer may have terminated
                               the call for various reasons beyond the control of the IRS.
                               3
                                 E-mail is electronic text mail used for the transmission of messages
                               sent from a computer terminal or computer system.
                                                                                              Page 1
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines

                       •   3 percent (8,434) by correspondence.
                       •   5 percent (13,102) closed as no contact because the
                           IRS was not able to reach the taxpayer by telephone
                           after 2 attempts on 2 different days.
                       Although the R-Mail Program was originally intended to
                       provide only telephone responses, the IRS recognized that
                       adding the option to offer e-mail or written responses could
                       also benefit many taxpayers. The foresight of this decision
                       is clearly supported by the increase in e-mail responses to
                       taxpayers; the 53,980 e-mails sent in the 2003 Filing Season
                       represent a 55 percent increase over the 34,719 e-mails sent
                       in the 2002 Filing Season.
                       In a prior Treasury Inspector General for Tax
                       Administration review,4 we reported that the
                       R-Mail Program needed to implement or strengthen
                       necessary controls to ensure risks to taxpayers are
                       minimized and customer service goals are achieved. As part
                       of its corrective action, the IRS completed the following:
                       •   Developed a guidebook to help ensure that the
                           overall R-Mail Program is effectively managed and
                           developed a coordinated plan with the Small Business/
                           Self-Employed (SB/SE) Division and Large and
                           Mid-Size Business (LMSB) Division to assign complex
                           questions to Assistors in a manner that maximizes their
                           technical expertise.
                       •   Established an R-Mail Coordinator to review
                           Centralized Quality Review Site (CQRS)5 results and
                           changed the time period for conducting trend analyses to
                           a weekly basis to timely provide accuracy and error
                           information for IRS field offices during the filing
                           season.


                       4
                         Automated Referral System Weaknesses Have Placed Customer
                       Service Goal Accomplishment at Risk (Reference Number 2001-30-169,
                       dated September 2001).
                       5
                         The CQRS is the IRS’ corporate monitoring system for its main
                       toll-free telephone lines. The role of the CQRS is to provide a single
                       product review system that provides qualitative and quantitative data for
                       use in determining whether the IRS is fulfilling its three goals of
                       increasing voluntary compliance, reducing taxpayer burden, and
                       improving quality-driven productivity and customer satisfaction.
                                                                                        Page 2
          Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                  Submitted Through Toll-Free Telephone Help Lines

                                 This review was performed at the Wage and Investment
                                 (W&I) Division offices in Chamblee, Georgia; Dallas,
                                 Texas; and Pittsburgh, Pennsylvania, between
                                 November 2002 and June 2003. We also conducted
                                 telephone interviews with IRS staff from the W&I and
                                 SB/SE Divisions. The audit was conducted in accordance
                                 with Government Auditing Standards. Detailed information
                                 on our audit objective, scope, and methodology is presented
                                 in Appendix I. Major contributors to the report are listed in
                                 Appendix II.
                                 To assess the quality of the R-Mail Program’s e-mail service
The Screeners Provided
                                 to taxpayers, we placed 70 test calls6 to the IRS’ toll-free
Professional Service in
                                 help lines. These calls involved complex tax questions that
94 Percent of Test Calls
                                 were proportionately based on the IRS’ projected volume of
                                 calls to be received by specific tax law categories during the
                                 2003 Filing Season (see Appendix V).
                                 The IRS realizes that some complex tax questions received
                                 by CSRs may require additional research due to their legal
                                 complexities. If so, the CSR is instructed to transfer the call
                                 to the IRS’ R-Mail Program. For example, we submitted
                                 the following complex tax test question:
                                     This past year, I sold one rental property and bought
                                     another. Do I need to pay capital gains on the property
                                     I sold? And if not, is there a special form/procedure to
                                     identify that I invested in another rental property?
                                 A regulatory guideline requires Screeners to provide
                                 taxpayers with both their name and unique identifying
                                 number for later reference if needed. A procedural
                                 guideline requires Screeners to inform callers that their
                                 question will be recorded and a response sent within
                                 3 business days to allow the IRS sufficient time to
                                 adequately research the question asked.
                                 In 66 (94 percent) of our 70 test calls, the Screeners
                                 followed the above stated regulatory and procedural
                                 guidelines and were determined to be professional during



                                 6
                                   The 70 test calls represent only a proportional array of questions
                                 judgmentally sampled and are not intended to be statistically valid for
                                 all calls received.
                                                                                                   Page 3
           Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                   Submitted Through Toll-Free Telephone Help Lines

                                  our initial contact. The four test calls in which the above
                                  requirements were not met included:
                                  •   One where the Screener did not provide his or her name
                                      and identification number.
                                  •   Three where Screeners did not convey that questions
                                      would be answered within 3 business days.
                                  Each year, the R-Mail Program identifies specific tax law
The Screeners Accurately
                                  categories. If a taxpayer’s question concerns one of these
Recorded Information in the
                                  complex tax law categories,7 the call is transferred from the
Referral Mail Database in
                                  CSR to an R-Mail Screener. After identifying themselves
72 Percent of Test Calls
                                  and explaining the process, Screeners are responsible for
                                  recording the taxpayer’s question in the R-Mail database
                                  and also reading the question back to the taxpayer to ensure
                                  the question is accurately transcribed.
                                  In our 70 test calls, Screeners provided an immediate
                                  response to 5 questions (7 percent), of which 3 were
                                  incorrect. Of the remaining 65 questions, the Screeners
                                  accurately recorded 47 (72 percent) in the R-Mail database,
                                  while the remaining 18 (28 percent) showed either an
                                  incorrect e-mail address or an incomplete or inaccurate
                                  question. Existing procedures do not clearly address how
                                  Screeners should respond to taxpayers that may call back
                                  indicating no response e-mail was ever received.
                                  Current R-Mail guidelines do not prohibit Screeners from
                                  immediately answering taxpayer questions. As stated
                                  previously, in our review of 70 test calls, this occurred
                                  5 times. IRS personnel advised us that these questions were
                                  probably not entered into the R-Mail database if a reference
                                  number was not provided, and research capabilities were not
                                  available to locate the questions in the database. When
                                  questions are not recorded, it causes an understatement in
                                  the total number of responses. This will cause management
                                  information to be incorrect unless guidelines are modified to
                                  either prohibit the Screeners from answering questions or
                                  require Screeners to capture these questions when they
                                  occur.



                                  7
                                   See Appendix V –Tax Law Categories for the 2003 Filing Season
                                  Referral Mail Program.
                                                                                             Page 4
            Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                    Submitted Through Toll-Free Telephone Help Lines

                                   Additionally, management statistics may be distorted by
                                   unanswered calls resulting from taxpayers hanging up or
                                   unintentional system disconnects. For example, in the
                                   2003 Filing Season, the difference between the
                                   592,687 calls transferred to the R-Mail Program and the
                                   280,176 questions actually recorded in the database includes
                                   80,056 calls that current guidelines do not address.8 These
                                   calls include not only immediate Screener responses, but
                                   also those instances in which the call may have been
                                   terminated for various reasons beyond the IRS’ control.
                                   Once a taxpayer’s question has been accurately recorded in
The Assistors Provided
                                   the R-Mail database, it is the responsibility of the Assistors
Correct Responses in
                                   to research and provide taxpayers with a correct response.
74 Percent of Test Calls
                                   After Screeners accurately recorded 47 of 65 test questions
                                   in the R-Mail database, the Assistors correctly answered
                                   35 (74 percent) of the 65 questions within the 3-day
                                   response period. For the remaining 12 questions, Assistors
                                   either provided incorrect answers or omitted information
                                   necessary to make an answer correct. For example, the
                                   following shows the incorrect response provided for the test
                                   question shown on page 3:
                                         When you sold the rental property, did you receive the
                                         proceeds? If so, then you report the sale on Schedule E
                                         of Form 1040 and if there is a gain you may owe capital
                                         gains tax. It does not matter that you took the proceeds
                                         and purchased another property. There is a provision in
                                         the Internal Revenue Code 1031(k) whereby you may
                                         sell and repurchase a like-kind property through a third
                                         person, called a qualified intermediary. At no time can
                                         you have access to or the right to access the proceeds.
                                         There are many rules and restrictions. The information
                                         I have given you is found in IRS Publication 544, Sales
                                         and Other Dispositions of Assets.
                                   The answer is incorrect since the sale should be reported on
                                   Sale of Business Property (Form 4979), and possibly on
                                   Capital Gains and Losses (Schedule D, Form 1040).
                                   Incorrect or incomplete answers may be caused in part by
                                   taxpayers that choose not to provide a telephone contact

                                   8
                                       The remaining 232,455 calls were forwarded to other IRS programs.
                                                                                                   Page 5
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines

                       number during the screening process. Without a contact
                       number, the Assistor is not able to contact the taxpayer for
                       additional or clarifying information, which could lead to an
                       inadequate or incomplete response. If taxpayers do not
                       receive a response that is both timely and accurate, taxpayer
                       burden is increased by placing at risk their ability to
                       properly meet their responsibility to prepare and file an
                       accurate tax return when due.
                       Overall, IRS management did not ensure that Screeners and
                       Assistors accurately recorded and answered questions for
                       33 of our 70 test calls. During the record phase, Screeners
                       incorrectly answered 3 of the 5 test questions that received
                       an immediate response, and incompletely or inaccurately
                       recorded 18 of the remaining 65 questions or related
                       e-mail addresses in the R-Mail database. Subsequently, in
                       the answer phase, Assistors incompletely or incorrectly
                       answered 12 of the 47 accurately recorded questions.

                       Recommendations

                       The Commissioner, W&I Division, should initiate a review
                       of R-Mail Program guidelines and coordinate with both the
                       SB/SE and LMSB Division Commissioners to ensure that:
                       1. The Screeners accurately record complex questions by
                          emphasizing the importance to repeat and confirm
                          questions with taxpayers and the need for taxpayers to
                          provide a telephone contact number.
                       Management’s Response: A procedure to ensure that the
                       Screeners record taxpayer questions accurately has been
                       added to the 2004 Screener Guide. The Guide also instructs
                       Screeners to ask the customer for a telephone number.
                       2. The Assistors completely and correctly answer taxpayer
                          questions by emphasizing the importance of contacting
                          taxpayers for clarification or additional information, if
                          necessary, to address an issue.
                       Management’s Response: The 2004 Assistor Guide
                       instructs Assistors to call the taxpayer if they are unable to
                       answer the question based on the information secured by the
                       Screener.


                                                                              Page 6
           Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                   Submitted Through Toll-Free Telephone Help Lines

                                    A method to help improve a program’s objectives is to
Quality Review Procedures Do
                                    ensure its results are subjected to periodic quality review
Not Include Combining Accuracy
                                    procedures. Ensuring high-quality results from the R-Mail
Rates for Screeners and Assistors
                                    Program is a direct responsibility of the CQRS. However,
to Effectively Determine the
                                    for 2003, the CQRS did not perform any quality review
Overall Impact on Taxpayers
                                    checks of e-mail responses because of Internet restrictions
                                    encountered and the time required to gain access compared
                                    to the time the reviews were to begin. CQRS management
                                    decided to concentrate its quality review on responses made
                                    by the Assistors over the telephone and to separately
                                    conduct a review of the Screeners. During the period
                                    January through mid-April, the CQRS’ statistically sampled
                                    reviews identified a Screener accuracy rate of 78.1 percent
                                    and an Assistor accuracy rate of 71.5 percent.
                                    Although these types of reviews will help the R-Mail
                                    Program identify and correct problems, they will not suffice
                                    to provide an overall or combined assessment of whether
                                    e-mail responses are actually received or if the responses
                                    provided are both correct and complete.
                                    When all the above tests are viewed individually, they
                                    provide an informative internal perspective for IRS
                                    managers, but they do not adequately reflect the overall
                                    effectiveness of the R-Mail Program from the customer’s
                                    point of view. To determine that viewpoint, we must
                                    combine the results from both recording and answering
                                    taxpayer questions to determine the true impact on
                                    customers.
                                    Our combined results show that 47 percent (339 of 70) of
                                    our test calls did not receive the quality service expected,
                                    leaving only 53 percent (37 of 70) that did, based upon
                                    whether a complete and correct response was ultimately
                                    received. The results of our judgmental sample10 of 70 test
                                    calls suggest that many of the 53,980 customers that


                                    9
                                      The 33 calls consisted of 3 questions incorrectly answered by the
                                    Screeners, 18 questions incorrectly or incompletely recorded by the
                                    Screeners, and 12 questions incorrectly or incompletely answered by
                                    the Assistors.
                                    10
                                       This judgmental sample was not intended to be statistically valid, and
                                    the actual error rate for the 53,980 taxpayers within our sample universe
                                    could be higher or lower than the 47 percent error rate calculated from
                                    our judgmental results.
                                                                                                     Page 7
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines

                       received an e-mail response during the 2003 Filing Season
                       may have never received an actual response or received one
                       that was incorrect or incomplete.
                       The R-Mail Program was implemented to effectively
                       provide customer assistance relating to complex tax laws.
                       It is most effective when taxpayer questions are accurately
                       recorded and a taxpayer contact number is secured to ensure
                       all facts can be determined if needed. As more and more
                       taxpayers become accustomed to electronic communication,
                       it is to be expected that requests for e-mail responses will
                       continue to grow annually.

                       Recommendations

                       The Commissioner, W&I Division, should ensure that:
                       3. CQRS management performs periodic quality review
                          checks to determine the accuracy of the Screeners’
                          recorded e-mail addresses and of the Assistors’ e-mail
                          responses to taxpayers.
                       Management’s Response: The IRS will secure the
                       appropriate security clearance needed to reinstitute the
                       quality review of responses to R-Mail questions. Reviews
                       for the 2004 Filing Season will address the accuracy of
                       information secured by Screeners and the accuracy of
                       Assistors’ responses.
                       4. CQRS management develops a method to combine its
                          quality review of Screeners and Assistors into an overall
                          assessment of its e-mail process from the viewpoint of
                          the taxpayer’s expectation of receiving a correct,
                          complete, and timely response.
                       Management’s Response: The IRS’ review of e-mail
                       responses on R-Mail inquiries for the 2004 Filing Season
                       will assess quality from initial taxpayer contact with the
                       Screener through the response provided by the R-Mail
                       Assistor.




                                                                             Page 8
          Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                  Submitted Through Toll-Free Telephone Help Lines

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide an indication of the quality of the Internal
Revenue Service’s (IRS) toll-free telephone assistance for Referral Mail (R-Mail) Program
questions during the 2003 Filing Season.1 We limited our review of the R-Mail Program to only
e-mail2 responses. To accomplish our objective, we:
I.      Obtained the Fiscal Year 2003 Projected R-Mail Program call volume by topic and
        determined the percentage of calls by tax law topic.
II.     Obtained the Fiscal Year 2001 R-Mail Database and selected questions/records from the
        database by topic and updated questions based on new law. We judgmentally developed
        a sample of 70 test questions because available time and audit resources made it
        impractical to development a statistically valid number of questions and calls for all
        R-Mail topics.
III.    Called the toll-free telephone lines – 1-800-829-1040 (Individual Income Tax Services)
        and 1-800-829-4933 (Business & Specialty Tax Services) – during the period
        February 18 to April 14, 2003, with our 70 R-Mail Topic Test Questions and evaluated
        the overall experience we, as the customer, received. This consisted of an evaluation of
        whether we received professional service and an accurate, complete, and timely response.
IV.     Determined whether the Screeners provided professional service during the 70 test calls
        by evaluating the following:
        A.       Did the Screener provide his or her name and identification number (regulatory
                 guideline)?
        B.       Did the Screener provide the time period in which to expect a response
                 (procedural guideline)?
        C.       Did the Screener provide a reference number for the call (procedural guideline)?
V.      Determined whether the Screeners documented the question and e-mail address
        completely and correctly by accessing the R-Mail database based on the reference
        number provided and comparing the developed questions and e-mail addresses provided
        to the Screeners to the 65 questions and e-mail addresses documented in the R-Mail


1
 The period from January through mid-April when most individual income tax returns are filed.
2
 E-mail is electronic text mail used for the transmission of messages sent from a computer terminal or computer
system.
                                                                                                          Page 9
        Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                Submitted Through Toll-Free Telephone Help Lines

       database. We also evaluated the Screeners’ five immediate live responses for accuracy
       and completeness.
VI.    Determined whether the Assistor provided timely, accurate, and complete responses by
       performing our own research for the complete and correct response, calculating the days
       from the call to the e-mailed response received date, and performing some follow-up calls
       when no e-mail response was received.
VII.   Shared our results with IRS personnel and discussed our exception cases.




                                                                                        Page 10
        Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                Submitted Through Toll-Free Telephone Help Lines

                                                                                  Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs)
Scott Macfarlane, Director
Patricia Lee, Audit Manager
Gary L. Young, Audit Manager
Anthony Anneski, Jr., Acting Audit Manager
Lynn Faulkner, Senior Auditor
Sharon Shepherd, Senior Auditor
Jerry Douglas, Auditor
Stephanie McFadden, Auditor
Geraldine Vaughn, Auditor




                                                                                      Page 11
        Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                Submitted Through Toll-Free Telephone Help Lines

                                                                          Appendix III


                                  Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Director, Communication & Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Finance SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                Page 12
             Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                     Submitted Through Toll-Free Telephone Help Lines

                                                                                                   Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•     Taxpayer Burden – Actual; 33 e-mailed responses in 2003 Filing Season1 (see page 7).
Methodology Used to Measure the Reported Benefit:
During the 2003 Filing Season, the Treasury Inspector General for Tax Administration placed a
judgmental sample of 70 telephone calls to the Internal Revenue Service’s (IRS) toll-free help
lines. The calls consisted of complex tax law questions that were transferred to the Referral Mail
Program. We did not receive the quality service expected in 33 (47 percent) responses.
We believe many of the 53,980 customers that requested an e-mail response during the 2003
Filing Season may have never received an actual response or received one that was incorrect or
incomplete. However, our judgmental sample was not intended to be statistically valid, and the
actual error rate for these customers could be higher or lower than the 47 percent error rate
calculated from our sample results.




1
    The period from January through mid-April when most individual income tax returns are filed.


                                                                                                        Page 13
          Improvement Is Needed in E-Mail Responses to Complex Tax Questions
                  Submitted Through Toll-Free Telephone Help Lines

                                                                                                 Appendix V


                                   Tax Law Categories for the
                           2003 Filing Season1 Referral Mail Program

                                             Total
                                            R-Mail2            TIGTA3          Test Call
                                           Database            Test Call       Exception         Percentage
     Tax Law Category/Topic                Responses           Volume          Category           of Error

    Capital Gains and
    Alternative Minimum Tax                  136,277               30               13              43%

    Alien and International                  33,889                10                4              40%

    Partnerships and Corporations            32,469                9                 4              44%

    Sale of Business Property
    and Depreciation                         22,961                6                 4              67%

    Trusts and Fiduciaries                   18,281                5                 4              80%

    Rental Property                          24,375                7                 3              43%

    Estate and Gift Taxes                    11,306                3                 1              33%



           Total                             279,558               70               33             47%




1
  The period from January through mid-April when most individual income tax returns are filed.
2
  Referral Mail.
3
  Treasury Inspector General for Tax Administration.
                                                                                                       Page 14
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines

                                                              Appendix VI


           Management’s Response to the Draft Report




                                                                     Page 15
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines




                                                                     Page 16
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines




                                                                     Page 17
Improvement Is Needed in E-Mail Responses to Complex Tax Questions
        Submitted Through Toll-Free Telephone Help Lines




                                                                     Page 18
